                                                                             Issue Date
                                                                                  January 10, 2012
                                                                             Audit Report Number
                                                                                   2012-PH-1003




TO:              Sonia L. Burgos, Acting Director, Office of Public Housing, Newark Field
                  Office, 2FPHI

FROM:            //signed//
                 John P. Buck, Regional Inspector General for Audit, Philadelphia Region, 3AGA

SUBJECT:         The Housing Authority of the City of Camden, NJ, Generally Calculated Housing
                 Assistance Correctly, Properly Determined the Eligibility of Tenants, and
                 Recertified Tenants in a Timely Manner

                                           HIGHLIGHTS

    What We Audited and Why

                 We audited the Housing Authority of the City of Camden’s administration of
                 housing assistance payments that it made under the Section 8 Housing Choice
                 Voucher program as part of our fiscal year 2011 audit plan. This is the second of
                 two audit reports that we issued on the Authority’s Section 8 Housing Choice
                 Voucher program.1 The audit objectives addressed in this report were to
                 determine whether the Authority accurately calculated housing assistance
                 subsidies, properly determined the eligibility of tenants, and recertified tenants in
                 a timely manner.

    What We Found

                 The Authority generally calculated housing assistance subsidies correctly and
                 properly determined tenant eligibility. It also recertified tenants in a timely
                 manner. The audit identified some deficiencies in the tenant files, but the
                 deficiencies did not significantly affect the accuracy of the subsidy or the

1
 The first report was audit report number 2011-PH-1013, “The Housing Authority of the City of Camden, NJ, Did
Not Ensure That Its Section 8 Housing Choice Voucher Program Units Met housing Quality Standards,” dated
July 19, 2011.
           eligibility of the tenants. We discussed the deficiencies with Authority officials
           during the audit, and they took immediate corrective action.

What We Recommend

           This report does not contain recommendations.

Auditee’s Response

           We provided a draft audit report to the Authority on December 19, 2011, and
           discussed it with the Authority at an exit conference on January 4, 2012. It
           provided a written response to the draft report on January 4, 2012, agreeing with
           the conclusions in the report. The complete text of the Authority’s response can
           be found in appendix A of this report.




                                             2
                         TABLE OF CONTENTS


Background and Objectives                    4

Results of Audit                             5

Scope and Methodology                        6

Internal Controls                            8

Appendix
   A. Auditee Comments                       10




                                3
                     BACKGROUND AND OBJECTIVES


The Housing Authority of the City of Camden was established in 1938 under Federal and State
housing laws for the purpose of engaging in the development, acquisition, and administrative
activities of the low-income housing program and other programs with similar objectives for
low- and moderate-income families residing in Camden, NJ. The Authority is governed by a
five-member board of commissioners. The board appoints an executive director to manage the
day-to-day operations of the Authority. The executive director is Dr. Maria Marquez. The
Authority’s main administrative office is located at 2021 Watson Street, Camden, NJ.

Under the Section 8 Housing Choice Voucher program, the U.S. Department of Housing and
Urban Development (HUD) authorized the Authority to provide leased housing assistance
payments to 1,255 eligible households. HUD authorized the Authority the following financial
assistance for housing choice vouchers for fiscal years 2008 through 2010:

                                       Number of
                        Authority       vouchers       Annual budget
                        fiscal year    authorized        authority
                           2008           1,255          $9,218,366
                           2009           1,255           8,004,880
                           2010           1,255          10,342,595
                           Total                        $27,565,841

The Housing Choice Voucher program is the Federal Government’s major program for assisting
very low-income families, the elderly, and the disabled to afford decent, safe, and sanitary
housing in the private market. Since housing assistance is provided on behalf of the family or
individual, participants are able to find their own housing, including single-family homes,
townhouses, and apartments.

Regulations at 24 CFR (Code of Federal Regulations) 982.201 require that public housing
authorities admit only eligible families to the program. The applicant must be both income-
eligible and a citizen or a noncitizen with qualified immigration status. Regulations at 24 CFR
982.451 require that monthly housing assistance payments made by public housing authorities to
owners be determined in accordance with HUD regulations and other requirements. Housing
assistance payments should always be accurate and supported.

The audit objectives addressed in this report were to determine whether the Authority accurately
calculated housing assistance subsidies, properly determined the eligibility of tenants, and
recertified tenants in a timely manner.




                                               4
                                  RESULTS OF AUDIT

We audited 15 housing assistance payments, valued at $10,020, from the Authority’s housing
assistance payments register for the period January 2008 to May 2011. Based on our audit of the
corresponding 15 household files, we determined that the Authority calculated the payments
accurately and maintained appropriate documentation to support the payments, the eligibility of
tenants, and the timeliness of the household’s recertification. We did not review additional sample
payments or household files since the review of the first 15 payments and household files disclosed
no significant problems.

The audit identified the following deficiencies in the tenant files, but the deficiencies did not
significantly affect the accuracy of the subsidy or the eligibility of the tenants.

         Nine files lacked evidence of a criminal background check. We conducted background
         checks on the persons related to these files using the Accurint public record search and
         found that none of the persons had a criminal record.

         One file lacked a copy of a birth certificate and Social Security card for a dependent.

         One file lacked a signed declaration of citizenship form for a dependent. Signed forms
         were in the file for the other three dependents in the household.

         In five files, the Authority’s locally developed file checklist was incomplete. The
         Authority intends this checklist to be a tool for its housing specialists to ensure that the
         file documentation is complete. These five files contained one or more of the
         deficiencies identified above.

We discussed the deficiencies with Authority officials, who took immediate corrective action.




                                                  5
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

       Applicable laws and regulations, the Authority’s administrative plan, and HUD program
       requirements at 24 CFR Parts 982 and 985 and HUD’s Housing Choice Voucher
       Guidebook 7420.10G.

       The Authority’s computerized housing assistance payment data, accounting records, annual
       audited financial statements for years 2008 and 2009, tenant files, policies and procedures,
       board meeting minutes, and organizational chart.

       HUD’s monitoring reports for the Authority.

We also interviewed relevant Authority employees and had discussions with staff from HUD’s
Newark Office of Public Housing.

To achieve our audit objectives, we relied in part on computer-processed data in the Authority’s
database. We used the computer-processed data to select a sample of client files for review.
Although we did not perform a detailed assessment of the reliability of the data, we did perform a
minimal level of testing and found the data to be adequate for our purposes.

We screened 5,431 Social Security numbers for the voucher holders and household members
participating in the Authority’s program from January 2008 to May 2011 against a database
provided to us by the Social Security Administration. Three Social Security numbers had
validation issues. We conducted further research of the tenant files, conducted Lexis/Nexis and
Accurint public record searches, and determined that the three Social Security numbers were
valid.

Using Audit Command Language software, for the period January 1, 2010, through May 31,
2011, we compared

       An automated listing of the Authority’s 123 employees to an automated listing of its
       3,835 program participants and identified no problems.

       The automated listing of the Authority’s 123 employees to an automated listing of its 543
       program landlords and identified no problems.

       The automated listing of the Authority’s 3,835 program participants to the automated
       listing of its 543 program landlords and identified no problems.




                                                 6
We reviewed the tenant files for the nine program participants that entered the Authority’s
program during the period December 2010 to August 2011 to verify compliance with eligibility
requirements and identified no problems.

We statistically selected 15 payments from the Authority’s housing assistance payments register for
the period January 2008 to May 2011, which contained 50,265 payments valued at $34.4 million.
Using a variable statistical sampling method, our statistician created a sample of 75 payments
valued at $51,103 for review. We reviewed 15 of the payments valued at $10,020 and found that
the Authority generally calculated the payments accurately and maintained appropriate
documentation to support the payments. We did not review additional sample payments since the
review of the first 15 payments disclosed no significant problems.

We performed onsite audit work from June through November 2011 at the Authority’s office
located at 114 Boyd Street, Camden, NJ. The audit covered the period January 2010 through
May 2011 but was expanded when necessary to include other periods.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                 7
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

                  Program operations – Policies and procedures that management has
                  implemented to reasonably ensure that it calculates housing assistance
                  payments correctly and properly maintains documentation in its tenant files.

                  Validity and reliability of data – Policies and procedures that management has
                  implemented to reasonably ensure that valid and reliable data are obtained,
                  maintained, and fairly disclosed in reports.

                  Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


                                                 8
We evaluated internal controls related to the audit objective in accordance with
generally accepted government auditing standards. Our evaluation of internal
controls was not designed to provide assurance on the effectiveness of the internal
control structure as a whole. Accordingly, we do not express an opinion on the
effectiveness of the Authority’s internal control.




                                  9
                 APPENDIX

Appendix A

             AUDITEE COMMENTS




                    10
